*,

J. 0' - 5 3 4 9

v '

ORIGINAL

IN THE
SUPREME COURT OF THE UNITED STATES

Supreme Court, U.S.
FILED

OFFICE OF THE CLERK

My Client(s)

"In re [Daryl L. Zimmer],"

Petitioner,
vs.
My Opponent(s)

Jack Kowalski, Warden,
Respondent.

On Petition for Writ of Habeas Corpus to the
United States Court of Appeals for the Sixth Circuit

PETITION FOR WRIT OF HABEAS CORPUS

June 24, 2020
Mr. Daryl L. Summer Pro Se
MDOC No. 814913
Kinross Correctional Facility
4533 West Industrial Park Drive
Kincheloe, Michigan 49788-1638

i

QUESTION(S) PRESENTED

I.

II.

THE TRIAL COURT DENIED PETITIONER DUE PROCESS
AND EQUAL PROTECTION OF THE LAW RIGHTS WHEN THE
TRIAL COURT HAVING FULL KNOWLEDGE THAT
PETITIONER PLED GUILTY AS A RESULT OF A PLEA
BARGAIN AGREEMENT WHICH AS PART OF THE PLEA
BARGAIN THAT THERE WOULD BE NO MANDATORY
MINIMUM IN SENTENCING PETITIONER AS
PETITIONER'S SENTENCE WOULD BE CONSTRUCTED FROM
THE SENTENCING GUIDELINES WHEN THE TRIAL COURT
ELECTED TO DISREGARD THE PLEA AGREEMENT AND
TO A MANDATORY MINIMUM
SENTENCE THE PETITIONER
_
TERM OF TWENTY-FIVE (25) YEARS INCARCERATION,
THEREBY IN BREACH OF THE PLEA AGREEMENT.

FAILED TO OBJECT TO THE TRIAL

TRIAL g®^CHING THE pLEA AGREEMENT DURING THE

COURT
SENTENCING OF PETITIONER WHICH DENIED
SENIJtNCXNtr
effective ASSISTANCE OF COUNSEL.
PETITIONER THE

TTT

APPELLATE COUNSEL FAILED TO RAISE THE ABOVE TWO
(2) APPEAL, THEREBY DENYING THE PETITIONER THE
EFFECTIVE ASSISTANCE OF APPELLATE COUNSEL.

[A]

JUL - 8 2020

f

LIST OF PARTIES

[X] All parties appear in the caption of the case on the
cover page.

RELATED CASES

Zimmer v. Kowalski No. 1;19-cv-12462 United States District
Court for Eastern District of Michigan judgment entered October
. 25, 2019.
Zimmer v. Kowalski No. 19-2265 United States Court of Appeal
for the Sixth Circuit judgment entered April 01, 2020.

[iv]

TABLE OF authorities cited
P-AGE NO - :
CASES:
257
Santobello v. New York, 404 U.S.
People v. Nixten, 183 Mich. App. 95
Peugh v. U.S., 569 U.S. 530
Puckett U.S., 556 U.S. 129

Kernan v. Cuero, 138 S.Ct. 4
Zimermon v. Burch, 110 S.Ct. 975
Ct. 1500
McCoy v. Louisiana, 138 S.
Strickland v. Washington, 466 U._S . 668;
104 S.Ct. 2052; 80 L. Ed. 2d 674
Lema v. United States 987 F.2d 48 (1st Cir.
Argen Court v. U.S., 78 F.3d 14

2

(1971)

2, 3
2, 3
2, 3
3
3
4

(1990)
(2013)

(2009)
(2017)
(

>

(2018)

)

4, 6, 7 B,C
4

(1996)

5

(1984)
(

168,
Darden v. Wainwright,2d 144
(1986)
106 S.Ct. 2464;
Lockhart v. Fertwell, 506 U.S.364,
(1993)
113 S.Ct. 838; 122 L. Ed. 2d 180
(2003)
Joshua v. Dewitt 341 F.3d 430, 441 (6th Cir.
888 F.2d 399, 405 n.1 (6th Cir.(1989)
Smith v. Jago
.3 (6th Cir. (1985)
Bowen v. Foltz, 763 F.2d 191,194 n
(2004)
Mapes v. Tate, 388 F.3d 187
722 F.3d 118, 130 (2013)
Gonzalez v. United States
(1943)
Exparte Republic of Peru , 318 U.S. 578
(1971 )
Doherty v United States, 404 U.S. 28
)
(
Garza v. Idaho, 139 S. Ct. 738
(1 803)
Marbury v. Madison, 1 Cranch 137, 163

5
5
EC]
[C)
[Cl
6, [Cl
7
7
ED]
[B]
7

statutf^ and rules

[D]

Sec. 3006A
Criminal justice act of 1964 , 18 U.S.C.S.

8

Rule 11(d)(4)
OTHER
U.S. Const. 1 § 9 cl. 3,
U.S. Const. 1, Sec. 10
U.S. Const. Sixth Amendment

2, 3
3
4,
[viiil

[B1 ,

[Cl

IN THE
SUPREME COURT OF THE UNITED STATES

PETITION FOR WRIT OF HABEAS CORPUS

Opinions Below

[

1 For Cases from Federal Courts
The opinion of the United States Court of Appeals
appears at Appendix A to the Petition and is
[

]

Reported at In re Zimmer Case No. 19-2265;

The Opinion of the United States District Court appears
at Appendix B to the Petition and is

[

1

Reported at In re Zimmer Case No. 01:19-cv-12462

[i]

JURISDICTION
[ x ] for cases from Federal Courts
Court of Appeals decided
The date on which the United States
my case was April 01, 2020.
timely filed in
[ } No Petition for Rehearing was
Petitioner's case.
denied by the
[ ] A timely Petition for Rehearing was
United States Court of Appeals on the following date:
at Appendix
and a copy of the Order denying rehearing appears

An extension of time to file the Petition for a
(date)
Writ of Habeas Corpus was granted to and including
A
(date) in Application No.
on

[

1

invoked under 28 tJ-S.C. §
The jurisdiction of this Court is
2254(b) [

)

for cases from State Courts:

The date on which the highest state court decided my
___ . A copy of that decision appears at Appendix
case was

A timely Petition for Rehearing was thereafter
[ 1
, and a copy of the
denied on the following date. -----------------------Order denying Rehearing appears at Appendix
invoked under 28 U.S.C. § 2241
The jurisdiction of this Court is
[ii]

JURISDICTION

Petitioner case was transferred to the United States Court
of Appeals for the Sixth Circuit, from the Eastern District
Court of Michigan.
That order of transferred was October 25, 2019, as the
habeas was a successive petition that is index to Appendix C,
which the Court of Appeals denied authorization to send
Petitioner habeas corpus back to the district court which left
petitioner only one option and that was to file a Writ of
Habeas Corpus into this United States Supreme Court under
Title 28 Sec. 2241 for possible relief.

[iii]

STATEMENT OF THE CASE
A. Statement of the Proceedings:
, Daryl Lavern Zimmer, fifty five
In June of 2011, Petitioner
(first contact in Mr. Zimmer's life with
(55) years of age
early morning at his home located at
arrested
in
the
police), was
Clair County, Port
Road, Ruby, Michigan, in St
7422 Imlay City
Huron City Police, along with Mr.
Huron , Michigan, by the Port
Zimmer for some time.
Stephen Scharmaker who resided with Mr.
Zimmer was charged
Mr. Scharmaker was later released, but Mr.
Criminal Sexual Conduct On Thursday
twenty
plus
counts
of
with
went before Judge, James P. Adair (at
Mr.
Zimmer
August 18, 2011,
Circuit Court for St . Clair County,
present he's retired), in the
the City of Port Huron,
31 st Judicial Circuit Court, m
Michigan, for a plea hearing.
represented by
At the plea hearing, Petitioner ziinmar was
Edward G. Marshall (P44752). The
court appointed counsel
was also present.
Prosecutor, Mona S Armstrong (P51885),
Judge Adair inquiring from Mr.
started
off
with
The hearing
had been made between
Marshall whether a plea agreement
Zimmer?
„
„
a Armstrong and the Petitioner, Daryl h.
Prosecutor Mona S. A
g
petitioner Zimmer
Mr
Marshall
informed
the
Court
However
'
innocent of all charges and that he
had informed him that he was
Mr. Zimmer expressed the same to the
wanted a trial by jury.
Transcript).
pg. 4, H 1-24, Plea
(See
pg.
3
11
24-25;
Court.
choice to have a jury
Even though Mr Zimmer expressed his
trial, the plea court
determine his innocence or guilt at a
(Let it be plainly
path of plea agreement
continued along the
abbreviation refer to. (Pg. means page,
stated what the above
(See
means Plea Transcript).
paragraph,
plea
trans.
para H means
7
1-22; pg. 8, H 1-25; pg6,
ft
1-25;
pg.
pg. 5, H 5-25; pg.
9' £ 1-22,’ Plea Transcript).
[ix]
i
!

CERTIFICATE OF COMPLIANCE
No.

IN THE
SUPREME COURT OF THE UNITED STATES

My Client(s)

"In re [Daryl L. Zimmer],"
Petitioner,
vs.

My Opponent(s)

Jack Kowalski, Warden,
Respondent.

As required by Supreme Court Rule 33.1(h), I certify that the
____ __ words,
Petition for a Writ of Habeas Corpus contains
excluding the parts of the Petition that are exempted by Supreme
Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true
and correct.
Executed on June 24, 2020.

o

%

petitioner wPro Se
[v]

TABLE OF CONTENTS
Page No.:
i

Opinions Below

ii, iii

Jurisdiction

vi

List of Parties and Related Cases

v

Certificate of Compliance

vi

Constitutional and Statutory Provisions Involved

ix-x

Statement of the Case

xi

Reasons for Granting the Writ
Brief in Support

T-4

Conclusion

xii
INDEX TO APPENDICES

Appendix A

United States Appeals Court

Appendix 3

United States Eastern District Court

Appendix C

Notice of transfer and bond motion

Appendix D

Civil docket for Petitioner's Habeas Corpus

Appendix 3

Letter from Deputy Clerk of Appeals Court

Appendix F

Letter to the U.S. District Court concerning
Petitioner's unanswered appeal bond and appointment of
counsel Motions

Appendix G

District Court
Forma Pauperis

APPENDIX H

Letter from Jacob Lerritan
required information

Order

Granting
to

rvii]

Petition
provide

to
the

Proceed

In

following

However, Mona S. Armstrong, the Prosecutor, offered Mr.
, Mr.
Zimmer a plea agreement' through his court appointed attorney
to accept the plea which
Edward Marshall, who advised Mr. Zimmer
consisted of:

(1) no mandatory minimum, (2) his sentence would be
12,
constructed by the statutory sentencing guidelines, see pg.
mention concerning any possibility of
7-16, and (3) there was no
regarding the sentence Mr.
the sentence being an upward departure
Zimmer would be given.
On September 19, 2011, Mr. Zimmer accompanied by court
before Judge Adair
appointed attorney, Mr. Marshall, did appear
foi his sentencing. Judge Adair sentenced Mr. Zimmer to a twentyfive (25) year mandatory minimum sentence, in violation of the
guidelines, which was supposed to be used in constructing a
Zimmer's
sentence for Mr. Zimmer, which was a key part of Mr.
safe haven from being
plea agreement, part of which gave him a
given a mandatory minimum sentence, Thus, the sentencing court
breached the plea agreement entered into by Mr. Zimmer and the
Prosecutor, where the 25 year minimum term it imposed was the
why he agreed to plea guilty, to avoid it.
very factor as to
With no objections from his court appointed attorney, Mr.
ineffective assistance of
Marshall, such failure constituted
Amendment right to effective
counsel. Mr. Zimmer had a Sixth
counsel here, given the sentencing stage was a crucial stage of
relief cannot be obtained in any
the judicial process. Adequate
other forum or from any other court.
There is no other appeal on this case pending in any court,
State or Federal.
Respectfully submitted,
L

Mr. Daryl'/1 • immer Pro Se
MDOC No. 814913
Kinross Correctional Facility
4533 West Industrial Park Drive
Kincheloe, Michigan 49788-1638
[x]

REASONS FOR GRANTING THE PETITION
The United States Court of Appeals used unlawful
adjudicate Petitioner's second habeas petition which
contained two motions. (1) Motion for Appointment of
Motion for Release on Personal Recognizance or set a

procedure in
also
Counsel; (2)
fair appeal

bond.
Those two (2) motions were not adjudicated by the United
States Court of Appeals.
Both issues must be adjudicated or it violate Petitioner's
"Due Process."
This case must be remanded back to the United States Court of
Appeals to adjudicate the above two (2) motions.

Exi]

No.
IN THE
OF
THE UNITED STATES
SUPREME COURT

"In re [Daryl L. Zimmer],"
Petitioner,
vs.
Jack Kowalski, Warden,
Respondent.

BRIEF IN SUPPORT

1.

THF TRIAL COURT DENIED PETITIONER "DUE
PROCESS" AND EQUAL PROTECTION OF THE LAW
IlSHTS WHEN THE TRIAL COURT HAVING FULL
KNOWlIdGE THAT PETITIOT1® ELEM
OF THE

RESTOJ

^„PTffiTBraERE\SlS BE NO MANDATORY
minimum in sentencing tetttioner AS^PETITIONER
sentence would be constructs
__
SENTENCING GUIDELINES WHEN THE TRIA^COUR^

MANDATORY MINIMUM OF

selected

SENTENCED
THE
TWENTY-FIVE (25) years ™carceratioNd violated
COURT BREACHED THE PLEA
THE UNITED STATES
THE Ex Post Facto CLAUSE OF
CONSTITUTION
Petitioner Answer’s
!
!

I
t

1.

Yes

minimum
When Petitioner received a twenty-five (25) years
Circuit Court for the
sentence on September 19, 2011 by the
Judicial Circuit Court in the present of
County of St. Clair 31st
Edward G. Marshall (P44752). Judge
court-appointed counsel Mr.
in detail the contents
James P. Adair after Judge Adair was given
Mona S. Armstrong assistant
of the plea agreement by Ms.
1-7, plea transcript)
prosecutor. (Pg. 12, para 25, pg- 13, para
defense counsel, explained to Judge Adair , his
Also Mr. Marshall
. Marshall fully
unde r s t anding of the plea agreement which Mr
with prosecutor Armstrong, the plea
explained which coordinates
sentence would be
eliminated the mandatory minimum. Petitioner
13, para 7-16,
construCted by the sentencing guidelines. (PgAdair sentenced Petition on
plea transcript) . However, when Judge
, .
_iMonday the 19, 2011, to a 25 years mandatory minimum
definitely violated the plea agreement thereby breaching the plea
TvTpw York, 404 U.S. 257 at HN6; when a
bargain. In Santobello v
significant degree on a promise or agreement of
plea rests in any
said to be part of the
the prosecutor, so that it can be
must be fulfilled.
inducement or consideration, such promise
certiorari, the
Under summary of page 4, Ssntgbellb, supra on
and remanded the
United States Supreme Court vacated the judgment
was held (1) in expressing
case. In an opinion by Burger, ch. J.,
of criminal
view of the court, that the disposition
the unanimous
and the accused charges by agreement between the prosecutor
administration of
which was an essential component of the
must be
justice, to be encouraged when properly administered attended by safeguards, that when a guilty plea rested in
a promise of the prosecutor, so that
significant degree on
, such promise must be
could be said to be part of the inducement
breached the plea agreement when
The trial court
fulfilled, .
twenty-five (25) years minimum, it
sentenced
Petitioner
to
a
it
(See People v_.. Nixten, 183
denied Petitioner "Due Process" right.
it violated the ex post facto law
Mich. App. 95 HN !) as well as
(See Pen ah v- United States. X- t
of the United States Constitution.
f

2.

!

t.

the same as a contract
129,
HN
1.
Plea
bargains
are
556 U.S.
HN7 , Puckett, supra . When the
which operate the same way
with respect to an executed plea
prosecution breaches its promise
on a false premise, and his
the
defense
pleas
guilty
agreement
E. HNS, 9. Puckett supra,
conviction cannot stand. HN9: L.
sentence by the
Petitioner Zimmer is entitled to be
Xor-nan v.. (hero, 138 S.Ct. 4
guidelines with no upper departure HN2.
2.

OBJECT TO THE TRIAL
TRIAL COUNSEL FAILED TO AGREEMENT DURING THE
the plea
COURT tvrfaching
SENTENCING OF PETITIONER WHICH DENIED
EFFECTIVE ASSISTANCE OF
PETITIONER THE
COUNSEL.
Petitioner answers

Yes.

Zimmer to a twenty-five
sentence Petitioner
mandatory minimum sentence
(25) minimum, he gave Petitioner a
well as violated the ex post
which violated the ple.a agreement as
Sec.
3: U.S. Const. Art. 1,
Const.
1
,
§
9
c-*factor of the (II-SUnited^States, 569 U.S. 530, at
United
States
Const.
Peugh
v.
1 0)
the trial court
counsel form a objection to
time
did
defense
no
If
in order to preserve the issues.
breaching
claim for relief from
he fails to do so
The most said
thp prror is forfeited. HN2; M3, Emtott, ^pra.
is the fact that
and unjust thing pertaining to Petitioner Zi^er
When Judge Adair

Mr

Zimmer was born with a learning disability,

abilities
third to forth grade education, his comprehension
seals from one to
concerning the judgment system is almost, (on a
had to continue to talk to courtten ) 3 which is why he
Marshall because he was unable to
appointed counsel Mr
Zimmer
of the judicial- This was Mr.
understand the procedure
with the law. Mr. Zimmer was
first time ever having any problem
at the date of his arrest June of
fifty-five (55) Yeor of ag®
and still is
by the Port Huron City Police. Petitioner was
'
of the law which is no reason for Mr. Marshall to
ignorance
3.

misrepresent Petition and not protect Petitioner’s rights. In
975 HN6. Did understand how people
Zi.nermon v.__ Burch, 110 S. Ct.
of the law (which is
such as Petitioner Zimmer who is ignorance
unconstitutional is the
the average American) is treated: What is
of law.
deprivation of such an interest without due process
(Life, Liberty or Property).
defense counsel
The reason why Mr. Marshall was appointed as
legal and constitutional
for Petitioner was to protect Petitioner
and informed the plea court
rights. Petitioner plead not guilty
informed defense counsel.
he wanted a trial as well as he also
However, the court and
(Pg. 4, H 18-24, plea transcript).
(Pg. 5, H 5-25, pgprosecutor continued to speaking on a plea.
H 1-25, plea transcript) In McCoy v^ T.mlisiana,
6, K 1-25, pg. 7,
defendant has the right
138 S.Ct. 1500, this Court holds that a
refrain from admitting guilty, even when
to insist that counsel
confessing guilt offers
counsel's experience - based view is that
avoid the death penalty. HN 1 .
the defendant the best chance to
avoid the mandatory minimum,
This Petitioner plead guilty to
"no mandatory minimum." In
which was part of the plea agreement,
95. HN1 Breach of Plea
People v._ Nixten, 183 Mich. App.
sentencing agreement
Agreement. A trial court is not bound by any
However, once
negotiated between a defendant and the prosecutor.
induced by such an
a trial curt accepts a plea which was
must be fulfilled,
agreement, the terms of that agreement
counsel failed to adhere to
Never- the-less Petitioner defense
. Once Petitioner
Petitioner's decision to stand trial by jury
his right
Zimmer expressed his decision to stand trial which was
all other activities should
(SEE HN2, HN3, HN5, McCoy, supra)
That did not happen,
have ceased and a date set to select a jury.
the plea subject dominated the atmosphere.
the assistance of
Guaranteeing a defendant the right to have
demands. To
counsel for his/her defense, the Sixth Amendment so
counsel ineffective assistance,
demonstrate Mr. Marshall, defense
assistance of counsel
the counsel standard for an ineffective
4.

conduct so undermined the proper
claim is whether counsel’s
the trial cannot be
functioning of the adversarial process that
Strickland v.
having produced a just result.
relied upon as
Ct. 2052, 80 L. Ed. 2d 674 (1984) ;
Washington, 466 U.S. 668; 104 S.
987 F.2d 48 (1st Cir to succeed in a
Tisma

United—State_s

assistance of counsel, Petitioner must show
claim of ineffective
both incompetence and prejudice.
investigation into
counsel failed to conduct an
Defense
1 .
prepared to conduct
Petitioner's case and there is no way he was
definitely prejudice Petitioner as
trial,
which
most
a jury
denied any possible chance of having
Petitioner at that point was
a effective and ready defense counsel.
sentencing of the
By defense counsel not objecting at
2.
and the mandatory minimum
court breaching the plea agreement violated the ex post factor
sentence of twenty-five (25) years
without any proper objections from defense
of the U.S. Const
counsel.
most definitely rendered
Mr Marshall defense counsel
of counsel. Mr. Zimmer sentence
ineffective
assistance
Petitioner
must be resentenced, for there is no
cannot stand and Mr. Zimmer
counsel did not make
reasonable explanation as to why defense
review. It
the issues for appellate
proper objections to reserve
that, but for counsel's
is a reasonable probability
sentencing of Petitioner
unprofessional errors , the result of the
TTrvitod States./ 78 F.3d
different. 1 Argencourt „jv
would have been
Wainwriaht, 477. U.S. 168, 106 S.Ct.
14 (1st Cir. 1996); Darden v.
Vprt.well, 506 U.S. 364,

2464; 91 L .Ed.2d 144 (1986); Lockhart vu
122 L.Ed.2d 180 (1993).
113 S. Ct. 838,
3.

Appellate Counsel Failed To Raise ^above

p^titione^Effective^Assistance h Appellate
Counsel.
Petitioner Answers

"Yes"

5.

The purpose to have effective assistance of counsel on
appeal, is the appellate counsel must raise all meritful issues
and in order to claim any meritful claim appellate counsel must
read the trial transcript as well as sentencing record to know
hat occurred in the process at the trial level. Petitioner was
granted an appellate counsel on Petitioner s first appeal.
However, Petitioner court appointed appellate counsel Susen Welch
his first appeal
was appointed to represent Petitioner Zimmer on
of right. However, attorney Welch failed to raise the issues of
breaching the lea agreement and violating the ex post facto law.
A defendant is entitled to the
Mapes v. Tate, 388 F.3d 187 HN2:
effective assistance of counsel in his first appeal of right.
Appellate counsel’s performance is judged under the same standard
for evaluating trial counsel's performance found in Strickland.
To establish ineffective assistance of counsel, it must be shown
that counsel's performance was deficient and that the deficient
performance prejudiced the defense so as to render the trial
unfair and the result unreliable.
The scrutiny of counsel's performance is highly deferential
and counsel is strongly presumed to have rendered adequate
assistance and make all significant decisions in the exercise of
reasonable professional judgment which is untrue in the instant
claim that by appellate
case and there is no way counsel can
counsel failing to claim the errors of trial counsel failing to
object at Petitioner sentencing of the sentencing court breaching
the plea agreement by sentencing Petitioner to a mandatory
minimum which is twenty-five (25) years; and violating the ex
post facto law, is appellate strategy. It also can't be denied
that appellate counsel negligence most definitely did prejudice
Petitioner Zimmer With respect to prejudice in the context of
a defendant must
ineffective assistance of appellate counsel,
show a reasonable probability that, but for his counsel s
defective performance, he would have prevailed. Mapes, supra,
HN1, 111.
6.

receive the effective assistance
Mapes argues that he did not
of appellate counsel because his appellate counsel failed to
(1) the Eddings
raise the following three issues on appeal:
claim and (3) the unanimity ....
claim; (2) the acquittal-first
and obvious and (2) that
(1) that these issues were significant
appellate counsel did not have a strategy in omitting these
issues from his direct appeal.
effective assistance of
Petitioner Zimmer did not receive the
Petitioner appellate counsel failed to
appellate counsel because
(1) The sentencing
raise the following three issues on appeal:
court breached the plea agreement and violated the Ex Post Facto
(2) Court-appointed counsel
law of the United States Constitution
fail to make proper objections to preserve the issues, which
constitute ineffective assistance of counsel at the sentencing
and (3) Court-appointed Appellate
stage of the judicial process
appeal. Such
counsel failed to raise the above meritful issues on
conduct constituted ineffective assistance of appellate counsel.
Petitioner case should be remand back to the United States
. As the appeals court
Court of Appeals for proper adjudication
of counsel and motion
failed to adjudicate motion for appointment
722 F.3d 118, 130
for appeal bond. In Onnzalez V- United—States.
(2d Cir. 2013)(with regards to the claim of ineffective
assistance of counsel at sentencing. The defendant must show a
reasonable probability that , but for counsel's substandard
sentence). (See
performance, he would have received a less sever
.qi-r-i okland v. Washington, 466 U.S. 668, 695, 80 L.Ed. 2d 674
(1984) .
To aid the court appellate jurisdiction it can be
in aid of its
constitutionally exercised only insofar as writs re
578) ;
appellate jurisdiction . CExparte Reoub.l i c of Peru, 318 U.S.
Marburv V. Madison, 1 Cranch 137, 163 (1803).
Petitioner Zimmer did file a writ of habeas corpus into the
court in Detroit, Michigan, along with a motion
federal district
for appointment of counsel and a motion for a appeal bond
7.

incorporated in the writ petition.
successive habeas petition.
Because the habeas was ruled a
issues) on
(Even though the Petition contained two (2) new
transferred Petitioner's
October 25, 2019, the district court
Court of Appeals for the Sixth
complete case to the United States
Court of Appeals denied
Circuit On April 01, 2020, the
authorization to allow the district court to
Petitioner
second habeas petition, but the appea
adjudicate Petitioner’s
Petitioner's motion for appointment of
court failed to rule on
motion for appeal bond, which constitute
appellate counsel and
it prejudiced Petitioner.
unlawful procedure as well as
738, see id., at 96, 108 ("I
In Harza V- Idaha, 139 S.Ct.
a binging plea agreement.
understand that my plea agreement is
does not impose the
This means that if the district court
recommended by both parties, I will be
specific sentence as
to Rule 11(d)(4)
allowed to withdraw my plea of guilty pursuant
rules and proceed to a jury trial"); See
of the Idaho criminal
also id., at 128, at page 29 of 30 (3) -

8.

*

IN 7H£
SUPR£fl£ COURT OF 7fi£ UNI7£d S7A7£S

0 In A.& [danyl L^ Zimmen]0
Petitionen,
os.\
}ACK KOVALS KI, Uanden,
Respondents
7o P4.Q04.de The Following Regained InjLonmation:
The petition does not show hou> the

wnit will

&e in

aid

0/ the Count's Appellate junisdictions

A)s

Uhat aid the count appellate junisdiction can
He constitutionally exencised only insojLan as
wnits ane in aid 0/ its appellate junisdiction.\
( £k pante Republic ol Penu, 318 U^Ss 378 )/ ana.
Ptanlunu o.{ fladision, 1 Cnanch 137, 163 (1803)t
FTC
dean Foods Co.., 384 UsS.\ 397 (1966).\

All Units Ad,

28

sees

1631(a),

empowens the £edenal counts

to issue all wnits necessany on appnopniate in aid o(L thein nespectioe
junisdictions and agneealle to the usages and pninciples o£ law.|

*1

Uhat

exceptional

cincumstances

the Count's disenetionany powens/

1

wannant

the

exencise

o/L

)

Petitionen JLiled a *econd petition on

with thnee

(3) new i**ue*

Into

the.

IL\S^

*ucce**ive petition

di*tnict

Ca*tenn

Count -

Di*tnict ojt Michigan. which had to fLe tnan*£enncd to the *ixth cincuit
count &4 appeal*
petition28
1231

to

il,\S.\C^

(10th Cbi.(

obtain
§

leave

to

2244( d )( 3 )( A

£!le

a

second

331

Cllrte.

In ,mmne

2008)(pen Cuniam)(di*tnict count*

to decide second on *ucce**ive 28 tl.\ S.( C.< *ec.\.

ox

*ucce**ive
7.\ 3d

1249,

lack. juni*diction

§ 2233 claim* without

authonization (Lnom the Count o£ Appeal* ).\
IJL authonization i* denied the *ucce**ive petition i* di*mi**ed
and the only option petitionen ha* i* to £ile wnite o£ halea* conpu*
into thi* Supneme Count.\ (Cxtnaondinany wnlt 28 ll.\S.\C.\ § 2241 ).\

Uhy adequate neliefi. cannot &e obtained in any

othen jLonm.

on any othen couni.\ Rule 20.\ 1

The count mu*t unden*tand that eveny accu*ed i* not a* fiontunate
a* lUchael Tlynn.

who plead guilty not once tut twice to lying to

itedenal o(L£icen* duning and inve*tigation,

decau*e he wa* allegedly

a£naid. petitionen wa* ajLnaid when he pled guilty to a plea dangain
(which wa*
howeven.

dneached

Petitionen

dy the tnial count at *entencing Mn.\
i*

fining

held

to

the

plea

o£

guilty

ZimmenJt
(Lecau*e

Petitionen and thou*and o{ othen poon accu*ed mu*t *tand depone the
taw,

decau*e they don’t have nich and powen£ul £niend*

7lynn^

3

a*

Michael

7henejLone,

is the wn.it

the. only ne.mt.dy availatle to fln^ Zimmen,

•4 haieas conpus he. has caused to ie jUled in this County

The.
to

United

State.s

allow the. distnict

Count
count

successive ha teas petition,

a£
to

Appeals
adjudicate,

had

denied

authonization

petitionen' s,

second

on

tactically lecause fin,| Zimmen don't appean

to ie innocent^

(that do guilt on

innocence have to do with his

constitutional

nights ieing violated?

Adequate nelie/t cannot ie attained in any

othen /tonm

on £n@m

any othen county Rule 20,\1 oj. the United States Supneme County

L^ 'Zimmen, Pno Se

3

*

CONCLUSION

The Petition for a Writ of Habeas Corpus should be granted.

Respectfully submitted,
June 24, 2020

\

Daryl^ : Zrmifier 814913
Petitioner In Pro Se
Kinross Correctional Facility
4533 West Industrial Park Drive
Kincheloe, Michigan 49788-1638

[xii]

